Updated Assessment of GSA’s Major Management Challenges

                        August 2004


                   Procurement Activities

                   Contract Management

                   Information Technology

                   Management Controls

                  Aging Federal Buildings

                       Human Capital

        Protection of Federal Facilities and Personnel
       UPDATED ASSESSMENT OF GSA’S MAJOR MANAGEMENT CHALLENGES

                                     AUGUST 2004


                             PROCUREMENT ACTIVITIES

ISSUE: GSA provides Federal agencies with products and services valued in the billions
of dollars through various types of contracts it establishes and administers. Among
other contracting programs and vehicles, GSA is responsible for the Multiple Award
Schedules (MAS) program, a significant number of Multiple Award Contracts (MACs),
and the City Pair Airline contracts. Although our specific concerns vary somewhat
depending on the contracting program or vehicle, management challenges in this area
generally center around the contract evaluation and award process, and involve the
often related issues of 1) competition, 2) pricing, and 3) implementation of statutory or
regulatory compliance-type requirements.


The MAS Program provides Federal agencies with a simplified procurement process for
the purchase of a diverse range of commercial supplies and services from multiple
vendors at prices associated with volume buying. MAS contracts are awarded to
contractors supplying the same generic types of items or services at varying prices for
delivery within the same geographic areas. Federal agencies then simply order supplies
or services from the schedules (or catalogs) at the prenegotiated prices and pay the
contractors directly for their purchase. GSA administers over 60 schedules that
produced sales of $27 billion in FY 2003; and the volume is expected to continue to
grow.

Our Office is concerned that, as the MAS program has grown, the importance of certain
program fundamentals – including pricing objectives and other pricing tools – has
diminished. These fundamentals, which are set out by regulation, include the mandate
for most-favored customer (MFC) pricing, the requirement to perform meaningful price
analysis when awarding or extending contracts, and the use of preaward audits to assist
in negotiating contracts. MFC pricing ensures that MAS contract pricing harnesses the
Federal Government’s collective buying power for pricing purposes. Price analysis is the
key substantive step a contracting officer performs for the purpose of arriving at fair and
reasonable prices. Preaward audits are the main tool by which a contracting officer can
be assured that a vendor’s pricing is as represented. Such audits also provide
contracting officers with additional details regarding a vendor’s pricing and sales
practices in anticipation of negotiations. In 2001, we issued an OIG white paper,
reporting that FSS is not consistently negotiating most favored customer prices, many
MAS contract extensions are accomplished without adequate price analysis, and
available tools are not being used effectively to negotiate better MAS prices.

MACs are appropriate when the Government cannot predetermine, above a specified
minimum, the precise quantities of supplies or specific services that will be required
during the contract period. Using source selection procedures, GSA competitively
awards multiple contracts covering the same scope of work and then, as needs are
identified for specific tasks and products, agencies compete the task/delivery orders
among the contract holders. The use of multiple award contracts is encouraged by the
Federal Acquisition Streamlining Act of 1994 to promote best value and the fair


                                            2
opportunity for contract awardees to compete among themselves. The competition is
intended to lower prices, obtain better quality, reduce delivery time, and improve
customer service. Each of GSA’s three major Services has developed MACs. However,
at times the opportunity to be considered for task orders has been unnecessarily limited,
thus reducing the possibilities for lower prices, better quality, reduced delivery time, and
improved customer service.

Airline City Pair contracts are awarded annually. The $1 billion program provides federal
travelers with below market fares and provides advantages over commercial restricted
coach fares, including unrestricted and fully refundable fares, no penalties for
cancellations or schedule changes, and stable fare prices. To ensure the best value
possible for federal agencies, FSS needs to consider applying private sector practices
when evaluating offers, make travelers aware of benefits of using dual fares, and ensure
that measurement data is received from the airlines, banks and travel management
centers.

Client Support Centers. Over the past year and a half, we have identified improper
contracting practices at the FTS Client Support Centers in several regions, and we have
several other reviews in process. We identified numerous improper task order and
contract awards. In making these awards, CSC officials breached government
procurement laws and regulations, and, on a number of occasions, processed
procurement transactions that totaled more than $100 million of goods and services
through the Information Technology Fund that were well outside the fund’s legislatively
authorized purposes. Inappropriate contracting practices included: improper sole source
awards, misuse of small business contracts, allowing work outside the contract scope,
improper order modifications, frequent inappropriate use of time and materials task
orders, and not enforcing contract provisions. Several factors contributed to these
problems—an ineffective system of internal management controls, personnel sacrificing
adherence to proper procurement procedures in order to accommodate customers’
preferences, and a culture that emphasized revenue growth. Our reports have received
the attention of senior management, several congressional committees, the Office of
Management and Budget, and the media. In addition, other federal agencies,
particularly the Department of Defense, have initiated analyses of contract actions since
these questionable procurement actions were done on behalf of work requests from
other agencies.

AGENCY ACTIONS

We are participating with FSS on a working group to review current MAS procurement
practices, and analyze potential enhancements to program pricing activities. The group
is comprised of representatives from the Office of Acquisition Policy, General Counsel,
FSS acquisition, and the Office of Inspector General. On June 20, 2003, FSS issued a
Procurement Information Bulletin (PIB) to provide guidance and instructions to
contracting officers in requesting audit assistance from the OIG when making new
awards exercising options to extend the term of a contract. The principles in the PIB
also apply to audits of new MAS offers. The PIB should help contracting officers take
better advantage of the assistance that can be provided by the OIG.

FSS is supporting Federal Acquisition Regulation changes that will require agencies
acquiring services using the MAS services schedules to attempt to obtain better-than-
negotiated pricing on large procurements. On June 18, 2004, the Federal Acquisition


                                             3
Regulation Council issued a final ruling regarding ordering procedures under GSA’s
MAS contracting program. Among other things, the final rule requires ordering agencies
to seek competition among MAS vendors, document their award decisions, and seek
additional price reductions under Blanket Purchase Agreements (BPAs).

GSA worked with an interagency committee to develop a best practices guide, “Seven
Steps to Performance-Based Services Acquisition.” Additionally, a Center of Expertise
has been established to gather sample statements of work and develop a template for
performance-based service contracting solicitations.

The Agency conducted a study of FSS and FTS operations related to information
technology offerings in order to enhance GSA’s ability to provide best value to customer
agencies. Three teams were established to develop business plans to combine and
realign functional areas related to IT that are currently carried out separately in FSS and
FTS, and expand expert assistance services, both technical and procurement, into other
GSA products and services.

GSA streamlined its supply operations by consolidating its distribution centers at two
locations. Recently, the Western Distribution Center moved to a more modern facility
with an updated material handling system. The agency estimated savings through
efficiencies and technology at $9 million. A similar redesign is anticipated at the Eastern
Distribution Center. An assessment of the validity of the estimated savings for the
upgrades and modernization of the Western Distribution Center is currently underway.

In June 2004, GSA established a new Office of the Chief Acquisition Officer, aimed at
ensuring compliance with federal contracting rules, fostering full and open competition
for contracts, and strengthening accountability in contracting. The office absorbed many
of the functions formerly in the Office of Governmentwide Policy.

On July 13, 2004, GSA unveiled a comprehensive plan designed to ensure improved
contracting operations and proper use of GSA’s contracting vehicles. The “Get it Right”
plan aims to make acquisition policies, regulations, and procedures clear and explicit
and improve the education/training of the federal acquisition workforce on the proper use
of GSA contracting vehicles and services. GSA worked closely with other federal
agencies, particularly the Department of Defense, in identifying actions necessary to
ensure proper use of GSA contracting vehicles by GSA and other agencies. The plan
will be a work in progress that will be continuously refined and updated.



                              CONTRACT MANAGEMENT

Issue: GSA increasingly accomplishes its mission by using contractors to provide client
services and products. In fiscal year 2002, GSA added new procurements valued at
more than $13 billion to its active contract inventory. While GSA gains tremendous
advantage by leveraging its human capital to manage and arrange for work to be
performed by contractors rather than doing the work itself, the corporate skill base
necessary to effectively manage contracts is not keeping pace with the growth and
complexity of this important activity.




                                             4
Through a number of unrelated audits performed over recent years, we have observed
certain trends that cause us to be concerned with contract management. Some points
we have noted are:
• Weak selection criteria permit poor performing contractors to win awards, or projects
were awarded to contractors with no expertise in the services needed. Task objectives
were poorly crafted, milestone plans were missing, and unauthorized personnel issued
some task orders. In addition, contracts were awarded without appropriate clauses to
hold contractors responsible for protecting sensitive data from unauthorized release.
• Use of contract formats that offer no incentives to keep projects moving. Contractors
often neglect to establish required quality control programs, or do not submit firm
construction schedules meaning that delays are unknown until they become serious.
• GSA personnel are not providing project oversight, are slow in making project-critical
decisions, and often do not inspect completed work projects prior to payment. Also,
services were paid for but never provided, and authorizations to pay for services
invoiced had no supporting documentation.
• GSA leasing officials did not monitor receipt of services required under leases and
relied on tenant complaints for identifying service deficiencies rather than taking a
proactive approach to ensuring required services are provided. We also noted a lack of
documentation supporting whether identified fire and other safety conditions in leased
facilities were corrected.

In our briefings to GSA senior management, we have emphasized that effective contract
management starts with complete acquisition planning; relies on sound source selection
criteria to select only the best contractors; requires clear and concise contract language;
demands well trained contract administrators; and needs well defined work or task order
requirements, including milestone plans with positive and negative incentives, and more
importantly, assertive action to get wayward contracts promptly on track. There is a
heightened need for improvement efforts as GSA’s contracting workload continues to
increase at a rapid rate. While many GSA contracts are well crafted and properly
administered, we are finding weaknesses more often.

AGENCY ACTIONS

GSA has provided training in source selection and related procurement issues for
property development personnel. It has also established an on-line folder to post source
selection best practices. Contracting officers are receiving classes in advanced source
selection and refresher training on aspects of construction project administration such as
critical path analysis, enforcement of clauses and scheduling, claims management,
processing change orders, and linking the indirect costs of client directed changes back
to clients.



                             INFORMATION TECHNOLOGY

ISSUE: With the increased development and implementation of new Information
Technology (IT) systems within GSA to perform its mission and manage its operations,
challenges in this area continue to increase. Many of GSA’s systems store and process
sensitive information, including personal employee data, financial data, and contractors’
proprietary information. Management challenges related to systems’ requirements and



                                             5
performance are faced at all phases of development, implementation, and operation.
Further, it is critical that the IT Security Program adequately manage all IT security risks.
GSA is the lead agency for five E-Government initiatives; two of the initiatives address
Government to Business or Government to Citizen services and three initiatives are to
provide services to other government departments and agencies. These IT applications,
developed to better manage operations and interface with the public, also give rise to
complex integration and security issues that must be addressed. Success is dependent
upon breaking development into short-term manageable segments with performance-
based deliverables consistent with system objectives.

Systems Development: GSA is in the process of replacing a number of its old systems,
in keeping with technological advances and to meet current regulations. Many of the IT
projects are designed to go beyond automating current business functions and create
real change in the way that GSA does business. However, GSA has experienced
recurring difficulty in deploying and maintaining structured system development practices
that ensure the proper development of requirements as well as implementation of
prescribed system processes. As a result, GSA systems commonly experience
development schedule delays and cost overruns, need frequent redesign, and have
difficulty sharing usable data between systems.

Many GSA IT projects attempt to minimize development cost and deployment schedules
by developing systems based on existing commercial-off-the-shelf (COTS) software
packages. COTS solutions offer agencies the ability to forgo lengthy development of
core system functionality and the ability to adhere to industry information processing
standards. However, the majority of COTS solutions do require modifications to meet
unique Federal requirements. Moreover, new systems require interfaces with existing
systems that are difficult to implement. Reviews by our office have shown this to be the
case with GSA’s new accounting system, Pegasys, the foundation of which is a COTS
financial management product. During FY 2001, the Office of the Chief Financial Officer
re-scoped Pegasys to focus on providing elements of the core financial functionality. As
planned, on October 1, 2002, Pegasys became the Agency’s official system for
accounting records. While this is a key accomplishment, numerous challenges remain
before completing full implementation of an integrated financial management system.

Information Technology Security: The Federal Information Security Management Act of
2002 permanently authorized the framework laid out in the earlier Government
Information Security Reform Act (GISRA) emphasizing key principles for computer
security for Federal programs and systems. With the OIG’s latest program evaluation,
we found that GSA continues to make progress in implementing its agency-wide IT
Security Program. The Security Division within the Office of the Chief Information
Officer has (1) issued security guidelines and revisions to the Agency-wide policy on IT
security, and (2) taken steps to correct security weaknesses identified in GSA’s Program
Level Plan of Action and Milestones (POA&M). However, system-level POA&Ms are not
consistently used to track and correct identified security weaknesses. Key systems
security documentation was outdated or not complete; and contractors were granted
access without appropriate background investigations.

AGENCY ACTIONS

In January 2003, the CIO issued a new handbook on IT Security Policy to document and
set forth GSA’s IT Security Policy, an element required for meeting the goals of GSA’s IT


                                              6
Security Program. In addition, Milestone and Action Plans for improving security for 23
of GSA’s major applications were provided to the Office of Management and Budget as
required by statute.



                              MANAGEMENT CONTROLS

ISSUE: Multiple management controls have been replaced, through reinvention
initiatives, by fewer and broader controls, making it essential that the remaining controls
be emphasized and consistently followed. The matter of weak internal controls underlies
several of the other management challenges discussed elsewhere in this paper.

Procurement: Management has been emphasizing the use of purchase cards as a
means of streamlining the procurement process. Individuals can charge any amount up
to their spending authority. The Agency’s emphasis on using purchase cards whenever
possible significantly heightens the importance of adequate controls for purchase card
transactions. Our concerns encompass whether speedy procurement is being attained
at the expense of appropriate regulatory requirements and good management controls,
whether charge cards are being used solely for appropriate Government purchases, and
whether GSA is getting the best price.

Many agencies have availed themselves of the services available under GSA’s
governmentwide charge card program, yet some have failed to adequately implement
controls over the use of the cards by their employees. While it is the responsibility of
individual agencies to establish controls for their own cardholders, OMB and the
Congress still look to GSA to take a leadership role in development of effective charge
card program controls across the government. Within GSA, steps taken to strengthen
controls over vehicle and travel cards appear to be effective since we seldom find
instances of misuse by GSA cardholders. Although the key control over purchase cards,
supervisory review of cardholders’ transactions, is now more consistently followed, we
do occasionally identify problems.

Data Integrity: In passing the Government Performance and Results Act of 1993
(Results Act), Congress emphasized that the usefulness of agencies’ performance data
depends, to a large degree, on the reliability and validity of those data. Past audit work
has shown that the absence of controls or the non-compliance with existing controls has
resulted in poor quality data at the operational levels of many GSA programs.

AGENCY ACTIONS

GSA’s Chief Financial Officer (CFO) is aware of the importance of adequate controls for
charge card transactions and has worked with our office to strengthen those controls.
New processes are in place that force reviewing officials to examine purchase
transactions monthly. Cards are withdrawn from those who do not comply. GSA
purchase cardholders and approving officials are required to complete refresher training
every two years. In addition, the CFO periodically issues E-mail reminders to
cardholders stressing their responsibilities for proper use of the cards. As a result, we
have seen a substantial reduction of fraud stemming from card use. GSA is also a key
participant in an OMB sponsored federal committee working to identify ways to improve
the overall charge card control systems governmentwide.


                                            7
The PBS Commissioner has taken action to improve the integrity of the data in IRIS, the
Inventory Reporting Information System. Because this system is used to manage the
Repair and Alterations Program, it is imperative that data in IRIS be reliable since PBS
management decisions regarding the investment, repair, or disposal of assets could be
significantly impaired An IRIS based measure for the basic Repair and Alteration
Program has been put in place and a contract was awarded for modification to import
key financial project data from the Financial Management System.

In an effort to rein in the cost growth and bid busts on new construction projects, the
commissioner has directed the national office to expand and strengthen its participation
in the oversight of major projects and the development of the project teams working on
them; develop a comprehensive project management manual; require senior
management involvement where technical evaluation of projects plans find unresolved
deficiencies and missing requirements before projects are advanced to OMB; and
establish a design management evaluation process that includes an independent cost
estimate at various design phase submissions.



                             AGING FEDERAL BUILDINGS

ISSUE: GSA is being challenged to provide quality space to Federal agencies in a
competitive environment with an aging, deteriorating inventory of buildings and critical
budgetary limitations.

It is estimated that it would take over $5 billion to bring the building inventory up to
standard. Since the Federal Buildings Fund generates annual revenue of about $8
billion, most of which is committed to leased space costs, operating expenditures, and
construction of new courthouses, finding funds for needed repairs is a major problem.

GSA needs to determine which buildings represent the greatest risk from a safety and
operational perspective, which buildings will yield the best return on investment, what the
Government’s future space requirements are, and how to fund the highest priority
projects in a timely manner.

Prior reviews showed a need for PBS to improve the administrative aspects of asbestos
management, develop a more comprehensive fire safety management system that
focuses on a national fire safety strategy, evaluate the formula used to measure a
building’s net income, and improve profit and loss information to facilitate better property
management decisions.

AGENCY ACTIONS

PBS developed a strategy for restructuring the owned building inventory. The strategy
envisions a combination of actions including disposals, exchanges, public/private
partnerships, outleases, and new construction. With the Portfolio Restructuring Initiative,
PBS has proposed a three-tiered approach in prioritizing the inventory, using a series of
asset diagnostic tests or measures, each with a performance target or threshold that will
assist in categorizing individual buildings. The first test simply seeks to determine



                                             8
whether the property produces sufficient income to meet both operating expenses and a
reserve for replacement. The second test measures an asset’s financial performance in
terms of return on investment. Other tests address operating efficiency, customer
satisfaction, rental rate and vacancy levels, and current repair and replacement needs.
After this performance review, each asset will be categorized as either performing,
under-performing, or non-performing. GSA will consult with affected agencies on
appropriate resolution strategies for each troubled asset. GSA has briefed
congressional subcommittees with jurisdiction over GSA, and they are very supportive of
this effort, as are OMB and GAO.

Management has developed a PBS-wide environmental system to become more
proactive in how it views and acts on environmental issues and to address issues such
as property contamination, compliance with Federal and state environmental laws and
regulations, and liability for tenant activities. PBS also developed a more
comprehensive fire safety strategy, which endeavors to provide a functional, safe, and
healthful work environment, protect property, and promote client agency mission
continuity.

PBS redesigned its policy for charging rent to customer agencies in FY 1997.
The largest source of income to the Federal Buildings Fund is the rent charged by PBS
to its customer agencies for the space they occupy in GSA controlled space. In FY 2003
this amount was estimated to be $6.6 billion.

The construction excellence program was established to help PBS improve the
management of its construction program and to complete new construction and major
R&A projects timely and with minimal changes.



                                    HUMAN CAPITAL

ISSUE: Like many Federal agencies, GSA has an aging workforce and faces significant
potential loss of institutional knowledge in the coming years. Since 1993, GSA has been
downsizing and has focused on restructuring its financial and business efforts. The
Agency workforce was reduced from 20,000 to 14,000 between 1993 and 1999. Much
of the downsizing was accomplished through early retirement and buyout authority, and
by filling job vacancies sparingly. In March 2003, a mass transfer of 1,268 employees to
the Department of Homeland Security further reduced the workforce to approximately
12,800.

Since 1998, the OIG has consistently cited human capital management as one of the
major management challenges facing GSA. Additionally, Congress and the Government
Accountability Office (GAO) have identified human capital management policies as a
missing link in the Government’s performance management framework. GAO added
this issue to its list of major management challenges facing Federal agencies. Human
capital planning and organizational alignment, leadership continuity and succession
planning, and recruitment and retention of staff with the right skills were identified as key
areas needing attention.

AGENCY ACTIONS



                                             9
GSA has moved on several fronts to meet identified human capital challenges. The
agency recently completed an agency-level workforce analysis that parallels GSA’s
Human Capital Strategic Goals that were developed as part of the strategic plan in
August 2002. The report will assist management in making informed human capital
decisions. Identified mission critical occupations are particularly emphasized in
recruitment and retention strategies. The Office of the Chief People Officer selectively
uses HR flexibilities to compete for employees. It has developed recruitment and
retention strategies with the help of OPM and employee focus groups, and uses the
“compelling job offer” technique to convince potential employees of the importance of the
position.

GSA has a number of initiatives regarding employee orientation, engaging existing
employees, and developing leaders within GSA. New employees are provided the
opportunity to attend an intensive 2 ½ to 5-day “welcome to GSA”, and orientation to the
individual’s specific organization.

GSA issued a contract with the Gallup Organization for administration of the Q12 survey
that provides a snapshot of how well the agency is doing, where specific improvements
can be made, and the level of employees’ engagement at the workplace.

In its efforts to more accurately and consistently inventory its activities under the FAIR
Act, GSA’s competitive sourcing team oversees each Service’s inventory and reports on
any discrepancies or variances, and it established the Office of Performance
Improvement that will oversee the competitive sourcing initiatives for GSA.

As part of its human capital strategy, and to address planning needs, the Office of the
Chief People Officer launched the GSA Leadership Institute in February 2002 with the
implementation of its premier program, Leadership for New Supervisors, designed to
help new supervisors master skills to lead their workforce to achieving excellent results.
Added in June 2002, the agency-wide competitive Advanced Leadership Development
Program provides an opportunity for high potential GS-13s, 14s, and 15s to be selected
into a program that will equip them for consideration for senior level positions. In
December 2002, the Institute launched the Supervisory Toolbox, a nuts and bolts two-
day workshop for all supervisors and managers on the human resources responsibilities,
flexibilities and resources necessary to be effective supervisors. The Leading Edge
Program, announced in April 2003, offers managers an opportunity to customize a
development program keyed to GSA’s leadership competencies, including a 360
assessment, executive coaching, and workshops. Additional programs are being crafted
to help develop the agency’s future leaders.



             PROTECTION OF FEDERAL FACILITIES AND PERSONNEL

ISSUE: Providing a safe, healthful, and secure environment for over 1 million workers
and the visitors to over 8,600 owned and leased Federal facilities nationwide is a major
multifaceted responsibility of GSA. The increased risks from terrorism have greatly
expanded the range of vulnerabilities traditionally faced by building operations
personnel. In March 2003, the Federal Protective Service (FPS) was transferred from
GSA to the Department of Homeland Security (DHS). While FPS is no longer part of
GSA, the Agency will have a continual need to closely interact with security personnel


                                            10
due to GSA’s mission of housing Federal agencies. GSA and FPS/DHS operate under a
Memorandum of Agreement for obtaining services such as basic security for buildings,
contract guards, law enforcement, background suitability determinations for contractors
(including Child Care), pre-lease security checks, occupant emergency plan support and
continuity of operations plan activation support. Ensuring that Federal employees have
a secure work environment and that building assets are adequately safeguarded must
remain a primary concern of GSA.

An additional concern relates to how to pay for the upgrades and replacement of the
security countermeasure equipment that was initially obtained with $140 million in funds
provided directly by Congress. As equipment ages and technology advances, the cost
to maintain the security of GSA’s buildings could significantly impact availability of funds
for other building needs, and could create significant issues if tenants object to higher
rent costs resulting from upgraded security.

AGENCY ACTIONS

As part of the FPS transition to the new department, a Memorandum of Agreement
(MOA) was prepared, setting forth the support services GSA will provide to DHS and the
security services DHS will provide to GSA. Such services include the continuation of the
Federal Security Risk Manager Program, a risk assessment methodology that addresses
potential threats to Federal facilities. This methodology was designed to link threats, risk
levels and countermeasure recommendations, and address vulnerabilities and impact of
loss should an incident occur. The desired goal is to reduce threats at each facility
through specific countermeasures to address the risks.

In addition, as part of the increased focus on security, GSA is adopting a nation-wide
uniform credential based on Smart Card technology. A smart chip embedded in the
credential will identify each employee visually and electronically for both identification
and physical access purposes.




                                               11
